                                  i




U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


      EMERGENCY MEDICAL AND
    SEARCH AND RESCUE SERVICES,
       NATIONAL PARK SERVICE

            REPORT NO. 96-I-806
                JUNE 1996
           United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                                Washington, D.C. 20240




MEMORANDUM




SUBJECT SUMMARY: Final Survey Report for Your Information - “Emergency
                  Medical and Search and Rescue Services, National Park
                  Service” (No. 96-I-806)

Attached for your information is a copy of the subject final survey report.

We concluded that the National Park Service had developed highly skilled and
effective staffs for providing emergency medical and search and rescue services to
those people needing assistance in park units and had taken action to recover, from
park visitors, some of its costs for providing emergency services. However, the Park
Service had not established uniform procedures for recovering, from specific
beneficiaries, costs associated with providing emergency assistance; was not
depositing funds recovered into the U.S. Treasury as required; and had service fee

provisions. As a result, cost recovery practices among park units and park visitors
were not consistent; costs for emergency medical and search and rescue services for
fiscal year 1993 estimated to be at least $4.5 million were not recovered from the
specific beneficiaries; and fee collections totaling $757,800 were inappropriately
retained by park units.

The Park Service disagreed with the draft report’s three recommendations, stating
that it believed that Federal guidance pertaining to cost recovery “contemplated [a]
a business/commercial advantage” and therefore was outside the scope of the
emergency medical and search and rescue services because of the “totally
humanitarian” nature of this function. Based on the Park Service’s response, we
revised one recommendation and requested the Park Service to provide a response
to the revised recommendation and to reconsider its response to the remaining two
recommendations.

If you have any questions concerning this matter, please contact me or Ms. Judy
Harrison, Assistant Inspector General for Audits, at (202) 208-5745.



Attachment
                                                                     W-IN-NPS-O01-94

           United States Department of the Interior

                      OFFICE OF THE INSPECTOR GENERAL
                                 Washington, D.C. 20240




                              SURVEY REPORT

Memorandum

To:       Assistant Secretary for Fish and Wildlife and Parks

From:     Judy Harrison
          Assistant Inspector General for Audits

Subject: Final Survey Report on Emergency Medical and Search and Rescue
         Services, National Park Service (No. 96-I-806)

                               INTRODUCTION
This report presents the results of our survey of the National Park Service’s policies
and procedures for providing emergency medical and search and rescue services at
individual park units. The objective of our survey was to determine whether the
Park Service had taken the following actions: (1) provided sufficient resources to
ensure efficient and effective responses to emergency situations; and (2) ensured
recovery of the costs associated with providing emergency medical and search and
rescue services when such charges were authorized. In addition, we reviewed the
Park Service’s control of the funds recovered.

BACKGROUND

The National Park Service manages 367 individual park units, which include the
following: national, military, and historical parks; recreation areas; memorials; wild
and scenic rivers; historic sites; preserves; battlefields; seashores and lakeshores; and
scenic trails. These park units cover more than 80 million acres of land in 49 states,
the District of Columbia, and several U.S. insular areas. The Park Service is
responsible for protecting, conserving, and preserving the scenery, nature, historic
objects, and wildlife in the designated park units while concurrently fulfilling its
mandate to provide public accessibility and enjoyment of these units. Almost
300 million people visit national park units annually. The park visitors are often in
unfamiliar and sometimes hazardous environments, which increases the potential for
accidents and injuries.
When accidents or injuries occur, emergency assistance is provided to park visitors
by Park Service employees; other Federal, state, and local agency personnel; and
volunteers. Generally, providing both emergency medical and search and rescue
services requires the rescuers to locate and reach the persons; assess their condition;
provide initial treatment; and facilitate transport, which may include hand-carried
litters, patrol vehicles, ambulances, boats, fixed-wing aircraft, or helicopters.

The park units use emergency medical services and facilities in local communities if
they can ensure rapid responses in life-threatening emergencies. Otherwise, park
units have developed emergency medical services capabilities commensurate with
park unit needs and available funding resources. These capabilities include training
and maintaining certified emergency care providers who have skill levels ranging
from providing minor first aid through providing pre-hospital care involved with
cardiac cases (paramedics). The park units provide advanced life support care with
the assistance of medical doctors affiliated with a nearby local hospital or clinic.

During calendar year 1993, the Park Service reported that it responded to 4,700
search and rescue incidents and 25,160 emergency medical incidents, of which 11,560
of the latter involved medical life support. These incidents occurred primarily in 36
of the 367 park units of the park system. The Park Service reported expending about
$3.6 million for these services ($826,000 for emergency medical services and $2.8
million for search and rescue services). Costs for emergency medical and search and
                                                      l
rescue services included expenditures for salaries, overtime, hazardous duty pay,
training, supplies, equipment, vehicle use and acquisition, aircraft use, food and
lodging for rescuers, and registration fees for certification of the medical care
providers. The Park Service finances its emergency medical and search and rescue
services through appropriated funds, the user fee statute (31 U.S.C. 9701), other laws
contained in Park Service specific legislation (16 U.S.C.), and donations.

SCOPE OF SURVEY

The survey included reviews of the Park Service’s emergency medical and search and
rescue services provided from fiscal years 1991 to 1994 and included visits to or
contacts with the park units listed in Appendix 2. To accomplish our objective, we
took the following actions: (1) reviewed applicable Federal legislation and
regulations, Office of Management and Budget and Department of the Interior cost
recovery directives, and Park Service emergency services policies and directives; (2)
evaluated park unit cost accounting and recovery procedures; and (3) reviewed
applicable operating and financial records for the emergency services program. We
interviewed Park Service program and administrative personnel and reviewed


1
 The expenditure amount reported in the 1993 annual emergency medical services program report
generally excluded base salary costs for regular employees when they performed medical assistance
or attended related training classes. However, the 1993 search and rescue report included a $438,000
estimate for regular employee salary costs that were charged to the park unit’s annual operating
budget when these employees performed search and rescue services.
documents, records, and reports related to emergency medical and search and rescue
services. We also interviewed officials from the Department’s Office of the Solicitor
to obtain their perspectives on the requirements and authorities for recovering the
Federal costs of providing these emergency services.

We also developed and sent a questionnaire to 30 park units to obtain information
on program resources, the annual reporting of financial statistics, and accounting and
cost recovery practices related to the park units’ emergency medical and search and
rescue services programs, as well as data pertinent to individual search and rescue
operations. The park units were selected based on the number of incidents, cost
data, and program operations, as identified in the Park Service’s annual program
reports or the financial accounting system information. The park units’ responses
were incorporated into our report and used in forming our survey conclusions and
recommendations.

Our survey was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly,
we included such tests of records and other auditing procedures that were considered
necessary under the circumstances. As part of our survey, we performed an
evaluation of the Park Service’s internal controls related to financing and recovering
the costs of its emergency medical and search and rescue services programs. We
found that the Park Service had not established uniform procedures to recover costs
associated with providing emergency assistance to park visitors or complied with
revenue disposition requirements, as discussed in the Results of Survey section of
this report. Our recommendations, if implemented, should clarify and improve the
Park Service’s guidance in these areas. We also reviewed the Department of the
Interior’s Annual Statement and Report, required by the Federal Managers’
Financial Integrity Act, for fiscal years 1992 and 1993 and determined that none of
the Department’s reported weaknesses were directly related to the objective and
scope of this survey.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has
issued any reports on the Park Service’s emergency medical and search and rescue
services within the past 5 years.

                          RESULTS OF SURVEY
The National Park Service’s policies place a high priority on saving human life and
require that park units make reasonable efforts to provide appropriate emergency
medical services for visitors who become ill or injured in the parks; to search for lost
persons; and to rescue sick, injured, or stranded persons. The Park Service has
developed highly skilled and effective staffs for providing emergency medical and
search and rescue services to those people needing assistance in park units. However,
we found that the Park Service had not established uniform procedures for

                                           3
recovering costs associated with these activities. In addition, park units incorrectly
retained revenues collected for providing emergency medical and search and rescue
services instead of depositing the funds into the proper U.S. Treasury account, and
it entered into fee collection agreements with non-Federal entities that included
inadequate contract provisions. Although Federal statutes and Departmental and
Park Service directives provide guidance on cost recovery, this guidance was not
implemented effectively because the Park Service, without providing sufficient
guidance and oversight, relied on field-level managers to institute a system for
charging and collecting use fees from the visitors assisted. As a result, cost recovery
practices among park units and park visitors were not consistent, costs for emergency
medical and search and rescue services for fiscal year 1993 estimated to be at least
$4.5 million were not recovered from the specific beneficiaries, and fee collections
totaling $757,800 were inappropriately retained by park units.

Fee Recovery

The Park Service has not established uniform procedures that ensure the recovery
of all appropriate costs associated with providing emergency assistance to park
visitors. Although Park Service management guidelines (NPS-51, “Emergency
Medical Services”) contain guidance for establishing or maintaining an emergency
medical services program and for charging fees for medical services provided by park
units, the guidelines do not address whether fees may be charged for search and
rescue services. In that regard, the user fee statute (31 U.S.C. 9701) authorizes and
administrative guidelines (Office of Management and Budget Circular A-25, “User
Charges,” and the Departmental Manual, Part 346) instruct agencies to establish a
                                                                        2
reasonable charge for an agency service that conveys special benefits to identifiable
recipients beyond those accruing to the general public. In the Park Service’s case,
we believe that the park visitor who becomes ill or injured and receives emergency
medical services receives a special benefit that does not accrue to the general public.
Also, the provision of search and rescue services could also be considered a special
benefit.

However, Park Service guidelines left the assessment of fees and cost recovery to the
discretion of park management. Furthermore, these guidelines did not provide
specific instructions that ensured consistent application of the park unit’s cost
recovery efforts or that identified all appropriate billable services, rate-setting
                                                                   3
methods, or collection requirements. For the 36 parks reviewed, we found that 9

2
According to Office of Management and Budget Circular A-25, a special benefit accrues when the
Government-rendered service: (1) enables the beneficiary to obtain more immediate or substantial
gains or values than those that accrue to the general public; or (2) is performed at the request of, or
for the convenience of, the recipient and is beyond the services regularly received by other members
of the same industry or group or by the general public.
3
 Of the 36 park units, 24 parks charged entrance fees (including 8 parks that charged camping, daily
recreation, or special use fees), 8 parks had no established program to charge entrance fees, and 4
parks were prohibited by legislation from charging entrance fees. For the 24 park units that charged

                                                  4
park units had implemented procedures to charge and recover at least a portion of
the costs for emergency medical and search and rescue services from visitors
(Appendix 3). Death Valley National Monument was the only park unit that charged
and collected sufficient revenues from visitors to recover its reported costs for
emergency medical and search and rescue services. However, policies for charging
fees varied among the park units when the following services were provided: aircraft
or ambulance services, basic life support or advanced life support activities, oxygen
use, cardiac monitors, or advanced life support skills during helicopter medical
evacuations. For example:

     - Of the three Western Region parks that reported helicopter usage for medical
or other evacuation on search and rescue operations, Grand Canyon and
Sequoia/Kings Canyon National Parks charged visitors for medical and helicopter
services that cost about $174,000 for fiscal year 1993, but Yosemite National Park,
which also reported significant usage, did not charge visitors for emergency medical
and search and rescue services that cost about $113,000.

     - Grand Canyon’s policy was to charge visitors for pre-hospital medical services
when the visitors required transportation by either ambulance or helicopter. These
charges were based on standard rates for basic life support, advanced life support,
oxygen use, mileage, advanced life support attendants, and transfer costs. Visitors
also were to be charged for search and rescue evacuations, but the charges were to
be limited to the medical evacuation portion of the costs. However, costs for
additional flights and other services were to be charged to the visitors when park
officials determined that the visitors’ actions caused unnecessary rescue efforts. This
contrasted with Yosemite National Park’s policy, which charged for pre-hospital
emergency services only when the visitors were transported by ambulance, and
Sequoia/Kings Canyon’s policy, which charged pre-hospital emergency services only
when the visitors were transported by a non-Park Service ambulance service that had
agreed to bill the visitor for the park unit.

     - None of the six park units that we visited charged for emergency medical or
search and rescue services when backcountry evacuations involved modes of
transportation such as hand-carried litters, boats, or patrol vehicles. Also, the costs
of searching for lost or missing visitors were not charged.

While we could not determine the full cost of providing emergency medical and
search and rescue services to the visiting public because the costs were not
specifically identified in accounting records, we estimated that at least $4.5 million
was expended to provide the services in fiscal year 1993. Our estimate was based on
the Park Service’s reported program expenditures of $3.6 million, plus salary costs


fees, emergency medical and search and rescue services expenditures represented about $2.1 million
(58 percent) of the $3.6 million of emergency medical and search and rescue services expenditures
reported by the Park Service.
for employee training estimated at $1.2 million, minus annual revenue collections
totaling $324,000 (Appendix 1). Although the cost effectiveness of collecting fees
could not be evaluated because of the lack of cost data, our review of revenue and
cost data for eight parks in the Western and Rocky Mountain Regions that charged
for emergency services showed that revenues exceeded collection costs (Appendix 2).

Despite the Park Service’s progress in implementing some types of cost recovery,
appropriations were still the primary source of funding of emergency medical and
search and rescue services for park visitors. The emergency medical and search and
rescue services activities were described in the Park Service’s annual budget requests
as part of the operation of the National Park System. However, we found that
emergency services costs were not fully budgeted and charged to the operations
account.

Since fiscal year 1983, the Park Service has had authority, in both the Department’s
annual Appropriations Acts and in Title 16 of the United States Code, to charge the
costs of conducting emergency search and rescue operations to any funds available
to the Park Service. As such, the Park Service established a policy whereby incidents
costing less than $500 were chargeable only to the park unit’s operating
appropriation account. Unbudgeted incident costs equaling or exceeding $500 were
classified as “major” incidents, with the unbudgeted costs charged to a separate
                                                                         4
account and then transferred to other appropriations at fiscal year-end. According
to a Park Service Budget Division official, a $500 threshold for unbudgeted incident
      5
costs was established to ensure that non-operations appropriations accounts did not
finance all costs for search and rescue incidents.

The National Performance Review concluded that the Park Service should identify
ways to generate funds to perform its program requirements because of fiscal
constraints on Federal appropriations. While we recognize that the recovery of the
costs of providing emergency assistance to individuals who become ill, injured, or
stranded is a sensitive issue, we believe that the Park Service should clearly define
its position on this matter and develop uniform procedures to ensure that the costs
of emergency medical services are appropriately recovered from the park visitors who



4
 The total charges to the Park Service’s “major” accounts established to record separately the
unbudgeted search and rescue services costs for fiscal years 1992, 1993, and 1994 were $1.436 million,
$2.186 million, and $1.253 million, respectively (Appendix 4). These costs, combined with emergency
law and order costs (which cannot be absorbed by the Park Service’s operations account), were
transferred to construction and land acquisition and state assistance accounts. The total combined
transfer costs in fiscal years 1992, 1993, and 1994 were $2.9 million, $3.0 million, and $1.0 million,
respectively.
5
 Unbudgeted costs for search and rescue services included costs for permanent and seasonal employee
overtime and hazardous duty premium pay; emergency hire employee pay; travel, helicopter, and
vehicle expenses; and supply or equipment purchases. Essentially, unbudgeted costs included all costs
incurred to perform an operation except the normal tour of duty salary costs of regular employees.

                                                  6
receive the program benefits and prepare written guidance on whether to charge fees
for search and rescue services.

Fee Revenues

For fiscal years 1992 through 1994, nine park units that charged for emergency
assistance retained fee revenues totaling $757,800 (Appendix 3). These fee revenues
were deposited into the parks’ reimbursable accounts rather than into the U.S.
Treasury account. The user fee statute (31 U.S.C. 9701) and the Departmental
Manual (346 DM 1.3) specify that funds recovered for services provided to the non-
Federal sector be deposited into a U.S. Treasury “miscellaneous receipt” account
unless the receipts are specifically exempted from the deposit requirement specified
in other legislation. We did not find any other legislation for the kinds of services
provided that specifically exempted the Park Service from the requirement to deposit
recovered funds into a U.S. Treasury account. Additionally, Park Service legislation
(16 U.S.C. 452) states, “All revenues of the national parks shall be covered into the
Treasury to the credit of miscellaneous receipts.”

As previously noted, 9 of the 36 parks reviewed had implemented procedures to
recover at least a portion of the costs provided for emergency services. However,
each of the nine parks incorrectly placed revenues associated with emergency medical
and search and rescue services charges into reimbursable accounts (Appendix 3).
For example:

     - During fiscal years 1992 through 1994, Sequoia and Kings Canyon properly
deposited revenues totaling $18,800 for helicopter services into the U.S. Treasury
account, but revenues totaling $13,400 for ambulance services were deposited into
a reimbursable account.

   - Grand Canyon deposited revenues totaling $289,000 for both helicopter and
ambulance services into reimbursable accounts during fiscal years 1992 through 1994.

    - Death Valley National Monument held, in a county “trust fund,” about
$47,600 for ambulance services that was billed and collected for the Monument by
Inyo County, California. An agreement between the County and the Monument
provided that the County would bill patients for the Monument’s ambulance services
and retain the collections until funds were requested by park unit officials for
emergency services costs such as equipment, supplies, and training.

The funds retained by the park units represented reimbursements for emergency
services provided to sick or injured visitors by the park units’ staffs. Park units that
retained and expended these revenues for their emergency services programs told us
that elimination or reduction of this funding source would be “detrimental” to their
emergency medical services program or would “adversely affect” other park program
areas. However, in our opinion, the park units lacked authority to retain these
emergency services revenues.


                                           7
Fee Collection Agreements

Eight of the nine park units that implemented cost recovery practices entered into
fee collection agreements with non-Federal entities (Appendix). However, the
agreements between the park units and the billing cooperators reduced revenues to
the Government and included provisions that did not fully protect the Government’s
interests. The park units used a billing cooperator to replace the parks’ billing and
collection activities by allowing the cooperator to issue the initial billing and demand
notice for payment and to collect emergency services fees.

Park Service guidelines (NPS-51, Chapter 16, Part II) permit cooperators to bill park
visitors for emergency care provided by park unit providers. However, according to
Departmental collection guidance (344 DM 2.4), contracted collection services were
designed to supplement, not replace, the basic collection program of a bureau.
Contracted services customarily are used to pursue debts owed the Government
already billed by a bureau rather than to replace a bureau’s billing and collection
activities.

The park units’ use of billing cooperators significantly reduced the net return to the
Federal Government for performing these services. For example:

     - Yosemite National Park began charging for its ambulance service in June
1991, and the Park’s medical clinic, under an agreement with the Park, performed
the Park’s billing and collection functions. The net collections for patient services
from October 1991 through June 1994 totaled $285,100, of which the Park received
$190,300 and the clinic retained $94,800, or 33 percent.

     - Grand Canyon National Park, under an agreement with the Park’s medical
clinic to bill for ambulance and helicopter medical evacuations, collected $365,900
from March 1993 through June 1994, of which the Park received $271,900 and the
clinic retained $94,000, or 26 percent. The collection retention percentages
applicable to other parks that used these billing services ranged from 7.5 to 40
percent, as shown in Appendix 3.

We also reviewed the provisions of the agreements between the park units and the
cooperators, which issued bills for emergency services received by park visitors. We
found eight park units that had collection agreements funded on a contingent
percentage fee basis of revenues collected, which is allowed under Federal and
Departmental regulations. However, three of the agreements included additional
fixed-fee amounts as part of the compensation to the billing cooperator. Title 4,
Section 102.6, of the Code of Federal Regulations and the Departmental Manual
(344 DM 2.4B) allow an agency to fund a collection contract on a fixed-fee basis, but
payment for collection services is required to be charged to the agency’s
appropriation. Fixed fee amounts paid from patient billing collections for the three
agreements totaled $45,500 (Appendix 3).
The park unit’s agreements also allowed the non-Federal cooperator to terminate
collection efforts on individual bills, whereas the Accounting Operation’s Division of
the Park Service’s Washington Office requires that bills issued by park units for
unpaid debts be forwarded to the Division to terminate collections. Under
requirements of the Debt Collection Act (Public Law 97-365) and applicable
regulations, the termination of collections cannot be delegated to a collection agency.

In addition, billing and collection information provided to Yosemite National Park
and Death Valley National Monument by its cooperators did not provide sufficient
data to ensure proper oversight of collection activities. For example, the information
did not describe how the cooperator computed the amounts due the parks and those
retained by the cooperators. The information also did not provide an aging schedule
of receivables or the status of the cooperators’ collection efforts. The Park Service’s
Accounting Operations Division should review and approve the collection
agreements between the park units and non-Federal entities to ensure compliance
with legislative requirements and to ensure that the interests of the Government are
fully protected,

Recommendations

We recommend that the Director, National Park Service:

     1. Ensure the consistent application of Park Service guidance for charging fees
for emergency medical services provided by park units through the development of
uniform cost recovery procedures that identify all appropriate billable services, rate-
setting methods, or collection requirements and consider the development of
procedures for charging fees for search and rescue services.

     2. Deposit emergency assistance revenue collections into the miscellaneous
receipt accounts of the U.S. Treasury unless legislative relief is obtained to authorize
the retention of the funds.

     3. Review collection agreements between park units and non-Federal entities
for the billing and collection of emergency medical costs to ensure compliance with
legislative requirements and to ensure that the interests of the Government are fully
protected. This would include ensuring that contracted collection services do not
replace the basic collection program of the agency; that the payment of fixed-fee
compensation for collection services is charged to the Park Service’s appropriation;
that unpaid debts to the Government are forwarded to the Park Service’s Accounting
Operations Division to be terminated; and that billing and collection information
provided by cooperators is sufficient to ensure the park unit’s proper oversight of
collection activities.
National Park Service Response and Office of Inspector General Reply

The October 13, 1995, response (Appendix 5) to the draft report from the Chief,
Ranger Activities Division, National Park Service, did not concur with
Recommendations 1, 2, and 3. Based on the response, we have revised
Recommendation 1 to clarify our position. Accordingly, the Park Service is
requested to respond to the revised recommendation and to the remaining two
recommendations, all of which are unresolved (see Appendix 6).

    Recommendation 1. Nonconcurrence.

      Park Service Response. Regarding Office of Management and Budget Circular
A-25, the Park Service stated that it did not believe that park visitors who became
“ill, lost, stranded, injured” received special benefits beyond those accruing to the
general public. Further, the Park Service stated that Section 6.a of the Circular
included criteria which are to be used in determining when special benefits exist and
that these criteria address a “contemplated business/commercial advantage which the
Circular intends to curtail by . . . cost recovery.” The Park Service said that it
believes this section places the Circular’s focus outside the scope of the emergency
medical and search and rescue services because this function is “totally humanitarian”
in character as opposed to the “commercialism” addressed in the Circular.

In addition, the Park Service stated that charging for emergency medical and search
and rescue services in any form other than as a direct exchange would remove, from
the Park Service, the discretionary exemption from tort liability currently in effect
under the Federal Tort Claims Act. Finally, the Park Service stated that proration
of emergency medical and search and rescue service charges as part of entry fees
would require authorizing legislation.

     Office of Inspector General Reply. As its general policy, Circular A-25 states
that a user charge will be assessed against each identifiable recipient for special
benefits derived from Federal activities beyond those received by the general public.
The Circular is applicable to all Federal activities and defines a special benefit as a
service performed at the request of or for the convenience of the recipient. We
verified with the Office of Management and Budget that the Circular was applicable
to both commercial and noncommercial activities. As such, we believe that the park
visitor who requires emergency assistance is the beneficiary of a special benefit and
that the costs of providing the emergency assistance should be recovered. While the
Circular does not specifically identify emergency medical and search and rescue
services as an example of an activity subject to a fee, Park Service guidance (NPS-51)
provides for the recovery of costs when providing medical services. However, it does
not address the recovery of costs for search and rescue activities. Furthermore, given
that this is a sensitive area, we have revised the recommendation to request that the
Park Service recover, on a consistent basis, the cost of providing emergency medical
services as provided for in NPS-51 and that the Park Service prepare written
guidance on whether to charge fees for search and rescue services. The clarification


                                          10
of Park Service procedures for recovering the costs of emergency medical services
and the development of policy regarding the recovery of costs associated with search
and rescue services should be based on the advice of the Office of the Solicitor
regarding the diminishing of the discretionary exemption from tort liability under the
Federal Tort Claims Act. Finally, based on comments made by Park Service officials
at our conference to discuss a preliminary report, we deleted the reference to the
Park Service’s consideration of recovering the costs of emergency medical and search
and rescue services through an allocation of a portion of a proposed increase in
entrance fees.

    Recommendation 2. Nonconcurrence.

    Park Service Response.      The Park Service stated that, in accordance with
Section of 6.c.(2) of the Circular, it would seek an exemption from the Office of
Management and Budget to allow parks to retain fees equal to the costs of operating
their emergency medical and search and rescue services programs.

     Office of Inspector General Reply. The exemption cited by the Park Service was
for an exception to charge fees, not an exception to return fees to the U.S. Treasury.

    Recommendation 3. Nonconcurrence.

    Park Service Response. The Park Service stated that the relationship of the
park units with their medical providers is one of “direct exchange” (of consumable
medical supplies) and not of billing.

    Office of Inspector General Reply.          We disagree that agreements with
cooperative medical providers merely represent an item-for-item exchange to
preserve the Federal Government’s investment in maintaining the medical supplies
at minimal or no cost to the Park Service. Park units have used cooperators, which
operate within the park boundaries, to replace the parks’ billing and collection
activities by allowing the cooperators to issue the initial billing and demand notice
for payment and to collect emergency services fees. Further, park units have
established billing and collection agreements with cooperators to collect, from park
visitors, a wide array of emergency services fees, such as $400 per patient for
advanced life support, $200 per patient for basic life support, $36 per patient for
administering oxygen, and $8 a mile for ambulance transport. In addition, the use of
billing cooperators reduced the net return to the Federal Government for performing
these services, and billing cooperators have not provide sufficient data to ensure
proper oversight of collection activities.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a
written response to this report by August 12, 1996. The response should provide the
information requested in Appendix 6.




                                          11
The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.
                                                                                    APPENDIX 1


               CLASSIFICATION OF MONETARY AMOUNTS


                                                                                 Funds To Be Put
             Finding Area                                                          To Better Use


Emergency Services Cost Recovery

 1993 Park Service annual reported costs                                               $3,600,000

 Estimated staff training costs*                                                         1,225,000

 Less fiscal year 1993 park unit collections**

     Estimated annual costs




*Costs for emergency medical services training reported in the 1993 program summary report excluded
costs for salaries for employees attending training courses but did report the number of staff training
days. We estimated salary costs by multiplying the reported 17,370 staff days by the daily salary cost
of an employee who was a GS-5, step 1 ($70.54 without benefits).

**The amount includes $16,600 collected in fiscal year 1993 by Sequoia and Kings Canyon National
Parks that was deposited, as appropriate, into a U.S. Treasury miscellaneous receipts account.

                                                  13
                            EMERGENCY SERVICES RESOURCE COMMITMENTS,
                              NUMBER OF INCIDENTS, AND COST ACTIVITIES
                                         REPORTED FOR 1993

                                        Emergency        Emergency
                                      Medical Training     Medical     No. of
                                         Staff-Days      Technicians   Cases     costs

                                              884             126         867   $127,000
                                              600              72       1,031    113,164
                                              615              50         594     26,336
                                              181              64         523     26,703
                                              200              27         273     26,726
                                              141              22         122      5,445
                                                3               6         138      1,845
                                               22              11          43        198
                                              104               6          27        750

Rocky Mountain Region
Canyonlands National Park                     207             14          27      9,085
Dinosaur National Monument                     28              8          14        “900
Glacier National Park                         146             37         170        850
                                              337             36         647     47,764
Grand Teton National Park                     131             35         201     32,575
                                      Emergency        Emergency
                                    Medical Training     Medical     No. of
                                      Staff-Days       Technicians   Cases

Rocky Mountain Region (Continued)
Rocky Mountain National Park                163             41         151    $5,519
Yellowstone National Park                   435             71         666    28,000
Zion National Park                           30             13         155     3,100
Mesa Verde National Park                     27             10          74     4,584

Pacific Northwest Region
Crater Lake National Park                   941             10          20     3,734
Mount Rainier National Park                 198             22          40    16,840
                                             49             20          43     3,300
Olympic National Park                        60             34          48     3,300
                                            250              8          13    13,000
Alaska Region
Denali National Park and Preserve            15             29          25     1,800
Wrangell-St.Elias National Park              22              8           3       500


North Atlantic Region
                                             26              17        749    13,618
Acadia National Park                         45              14         69     1,400
Mid-Atlantic Region
                                            400                        139
Shenandoah National Park                    493              30         97    29,261
Delaware Water Gap National                  93              24        163     3,128
                             Emergency        Emergency                         Search and Rescue
                           Medical Training     Medical     No. of              No. of
                              Staff-Days      Technicians   Cases               Cases       Costs

Mid-West Region
                                    127              6         37      $1,870      12       $675
                                     21              7          7       1,034      27        484

Southeast Region
Everglades National Park           255              32         74       3,200      52       9,684
                                   278              35        349      15,600      71     536,733

Southwest Region
                                    63                         39       1,556      22       3,396
Big Bend National Park                                                 26,800               2,653

 Total                                                               $600,485    2,365 $2,441,832
                                 PARKS WITH AMBULANCE SERVICES
                        AND PARKS THAT IMPLEMENTED BILLINGS FOR SERVICES
                                                            Ambulance        Park Uses                   Payment Basis to Collections to
                                               Fees           Services       Cooperator                                   Reimb. Accts.
                                             Charged          Charged        for Billings            Fixed Fee Percentage   FYs 92-94

Western Region
Yosemite National Park                          yes                yes               yes               $26,000 7.5% of NC             $190,300
Grand Canyon National Park                      yes                                                     $7,500 20% of NC               289,000
Sequoia/Kings Canyon National Park              yes                                                             10% of NC               13,400
Lake Mead National Recreation Area              no                no                n/a
Death Valley National Monument                  yes               yes               yes                           15% of NC              86,300

Rocky Mountain Region
Glen Canyon National Recreational Area          yes               yes               yes                 $12,000 20% of NC                14,200
Grand Teton National Park                       yes               yes               yes                         23% of GC                93,900
Yellowstone National Park                       yes               yes               yes                          15% of NC               55,000
Zion National Park                              no                no                n/a
Mesa Verde National Park                        yes               yes               yes                           40% of GC              10,700

Pacific Northwest Region
Mount Rainier National Park                     no                no                n/a
Crater Lake National Park                       no                no                n/a




cooperator to the patient (GC), as shown in the service agreements. When the payment basis included a fixed dollar amount, the net collections percentage was
applied to net collections in excess of the fixed amounts.
                                                           Ambulance         Park Uses                  Payment Basis to   Collections to
                                                Fees         Services        Cooperator                                    Reimb. Accts.
                                                                             for Billings           Fixed Fee Percentage

Alaska Region
Denali National Park and Preserve               no                no               n/a

Mid-Atlantic Region
Shenandoah National Park                        no                no               n/a

Southwest Region
Big Bend National Park                          yes              yes               no                                             $5,000
    Total




the $12,000 fixed amount for Glen Canyon National Recreation Area was a one-time start-up cost for the first year.
                                      UNBUDGETED EXPENDITURES FOR
                              MAJOR EMERGENCY SEARCH AND RESCUE OPERATIONS
                                     FOR FISCAL YEARS 1992, 1993, AND 1994

                                                     Estimated Predicable Costs By Year*                       Recorded Costs Charged to Separate Accounts



Alaska                                       $94,137               $85,424                $94,788                    $210,271        $195,556        $94,788
Mid-Atlantic                                  32,205               107,737                 86,756                      32,205         107,737         86,756
Mid-West                                       1,196                   991                 17,430                       1,196             991         17,430
National Capital                                   0                     0                      0                           0               0              0
North Atlantic                                 3,085                 1,556                 10,710                       3,085           1,556         10,710
Pacific Northwest                            103,696                55,603                 41,026                     133,851         189,805         41,026
Rocky Mountain                               199,374               244,662                184,686                     233,272         385,397        248,146
Southeast                                     73,676                57,895                 65,795                      73,676         466,499        115,112
Southwest                                     40,914                16,789                 12,222                      40,913          16,789         12,222
Western                                      560,903               484,358                476,681                     707,052         821,807        626,714

   Total                                                        $1,055,015              $990.094                   $1,435,521 $2,186,137 $1,252,904




* Our estimated costs were based on the regions’ and the Service’s annual total recorded costs adjusted to eliminate all separate incident costs at a given cost
threshold. We selected cost thresholds of $10,000, $15,000, $20,000, $25,000, and $50,000. Cost thresholds below $25,000 did not result in further reductions of
the variations of total costs for either the regions or the Service. However, a cost threshold at $25,000 eliminated the wide fluctuations in actual costs exhibited
for incident costs between fiscal years 1992 through 1994. A similar evaluation for fiscal year 1991 had the same results.
                                                                                     APPENDIX 5
                                                                                     Page 1 of 3
                                                                                         TAKE



                                      NATIONAL PARK SERVICE
                                             P.O. BOX 37127                                              ■

IN REPLY REFER TO,
                                       Washington, D.C. 20013-7127



  Memorandum




   Subject:          Comments on Draft Survey Report on Emergency Medical
                     and Search and Rescue Services, National Park Service
                     (Assignment No. W-IN-NPS-001-94)

  We p r o v i d e t h e       following        comments        to    the     draft      report’s
  recommendations.

  Recommendation No. 1:    Develop and implement uniform Servicewide
  cost recovery procedures based on cost rate schedules or comparable
  market rates allowed by Office of Management and Budget Circular A-
  25 and Departmental directives.    These procedures should include
  developing a system that identifies and accumulates the Park
  Service’s direct and indirect expenditures for providing emergency
  medical and search and rescue services.

  Comments: We d i s a g r e e . O u r u n d e r s t a n d i n g o f O M B C i r c u l a r A - 2 5 i s
  that it covers “... special benefits to recipients beyond those
  accruing to the general public. . .“ O u r b e l i e f i s t h a t i t s t r e t c h e s
  reason to attribute this notion to park v i s i t o r s            who    become            ill,
  lost, stranded, injured, etc. Visitors who do find themselves in
  such predicaments due to their own willful and wanton disregard for
  their welfare or the welfare of others are subject to criminal
  prosecution under the laws of the United States.

  Secondly, charging for SAR/EMS services, in any form or fashion
  other that what will be described below, would remove from the
  Park Service the discretionary exemption from tort liability
  currently in force under the Federal Tort Claims Act.

  Thirdly, proration of EMS/SAR charges as part of entry fees would,
                                                                         APPENDIX 5
                                                                         Page 2 of 3



Circular's focus outside the scope of the EMS/SAR functions.

Contrary to the entire platform erected by OMB Circular A-25, the
SAR\EMS function is totally humanitarian in character, having
absolutely nothing to do with the commercialism addressed by the
Circular.   Attachment 1 is a summary of comments obtained from
SAR/EMS officials at NPS field units.


Recommendation No. 2:     Deposit emergency assistance revenue
collections into the miscellaneous receipts accounts of the U.S.
Treasury unless legislative relief is obtained to authorize the
retention of the funds.

Comments: In the event that our comment to Recommendation No. 1 is
resolved in our favor, the other recommendations are moot.
However, we also disagree with Recommendation No. 2.
The OMB Circular A-25, Section 6.c. (2), allows for agency heads or
their designee to recommend to the Office of Management and Budget
that exceptions to the general policy be made when c e r t a i n
conditions exist.    Because this provision exists in the Circular
and because we believe the conditions are fulfilled, we would
initiate a request for an e x c e p t i o n w h i c h w o u l d a l l o w p a r k s t o
retain receipts equal to the costs of operating their programs.
Further, parks with Level V and Level VI emergency medical programs
(i.e. advanced life support medical programs as described in NPS-
51), by and large, have established direct exchange, of consumable
medical supplies, with their cooperator medical institutions. A
notable exception is Death Valley NP, which is so severely isolated
that it transfers patients, not to hospitals, but to helicopters, to
accomplish transport to the final destination.                  Thus , f o r t h i s
park, direct exchange f r o m t h e h e l i c o p t e r i s n o t f e a s i b l e .
However,   the Superintendent at t h i s p a r k i s                investigating
alternatives.

Recommendation No. 3:   Review collection agreements between park
units and non-Federal entities for the billing and collection of
emergency medical costs to ensure that legislative requirements are
adhered to and that the interests of the Government are fully
protected.

Comments: In the event that our comment to Recommendation No. 1 is
resolved in our favor, the other recommendations are moot.
However, we also disagree with Recommendation No. 3 because the
relationship of NPS EMS/SAR with State and local medical providers
                                                                     APPENDIX 5
                                                                     Page 3 of 3


" r e i n v e n t i o n " which the NPS initiated 20 years ago that still
works.



[NOTE:   ATTACHMENT NOT INCLUDED BY OFFICE OF INSPECTOR GENERAL. ]
                                                                APPENDIX 6

           STATUS OF AUDIT REPORT RECOMMENDATIONS

    Finding/
Recommendation
   Reference              Status                 Action Required

       1          Unresolved.           Respond to the revised
                                        recommendation, and provide a plan
                                        identifying actions to be taken, target
                                        dates for implementation, and titles of
                                        officials responsible for
                                        implementation. If nonconcurrence is
                                        indicated, provide specific reasons for
                                        the nonconcurrence.

    2 and 3       Unresolved.           Reconsider the recommendations, and
                                        provide a plan identifying actions to be
                                        taken, target dates for implementation,
                                        and titles of officials responsible for
                                        implementation.




                                   23
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:


                    Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1550 Wilson Boulevard                                  1-800-424-5081 or
Suite 402                                              (703) 235-9399
Arlington, Virginia 22210

                                                       TDD for hearing impaired
                                                       (703) 235-9403 or
                                                       1-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Deparment of the Interior                         (700) 550-7279 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
